Department of Homeland Security
   Ofﬁce of Inspector General

            Management Oversight and Component 
 

            Participation Are Necessary to Complete 
 

                DHS' Human Resource Systems 
 

                       Consolidation Effort 
 





OIG-10-99                                             July 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                       JUL - 1 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the actions DHS has taken and progress made to consolidate
components' human resource systems into enterprise-wide solutions to achieve greater
efficiencies and cost savings. It is based on interviews with selected management
officials and contractor personnel, direct observations, system security vulnerability
assessments, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                             ~L,~
                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Audit ...................................................................................................................3
 


     Actions Taken to Implement Enterprise-Wide Human Resource Systems ..................3 
 


     Management Oversight is Needed to Complete the Consolidation of DHS’ Human 

     Resource Systems ..........................................................................................................4 

     Recommendations........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


     Enhancements Can Be Made to TalentLink’s Technical Controls..............................14 
 

     Recommendations........................................................................................................18 
 

     Management Comments and OIG Analysis ................................................................18 
 


     Certification and Accreditation Deficiencies Identified in Human Resource

     Systems ........................................................................................................................21

     Recommendations........................................................................................................24 

     Management Comments and OIG Analysis ................................................................24 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................26 
 

     Appendix B:           Management Comments to the Draft Report .......................................27 
 

     Appendix C:           Major Contributors to this Report........................................................30 
 

     Appendix D:           Report Distribution ..............................................................................31 
 


Abbreviations
     CBP                 Customs and Border Protection 
 

     CIS                 Citizenship and Immigration Services 
 

     DHS                 Department of Homeland Security 
 

     EIS                 External Information System
 

     E-OPF               Electronic Official Personnel Folder 
 

     FEMA                Federal Emergency Management Agency 
 

     FLETC               Federal Law Enforcement Training Center 
 

     HCBS                Human Capital Business Systems 
 

     ICE                 Immigration and Customs Enforcement 
 

     NFC                 National Finance Center 
 

     NIST                National Institute of Standards and Technology
 

     NPPD                National Protection and Programs Directorate 
 

     OCHCO               Office of the Chief Human Capital Officer 
 

OCIO    Office of Chief Information Officer
OCISO   Office of Chief Information Security Officer
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPM     Office of Personnel Management
POA&M   Plan of Action and Milestones
PPS     Pay and Personnel System
TIC     Trusted Internet Connection
TSA     Transportation Security Administration
SaaS    Software as a Service
USCG    United States Coast Guard
USDA    United States Department of Agriculture
USSS    United States Secret Service
WebTA   Web Time and Attendance
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                       As required by the E-Government Act of 2002 and Office of
                       Management and Budget’s (OMB) government-wide initiatives,
                       DHS Office of the Chief Human Capital Officer (OCHCO) began
                       the process, in 2005, to consolidate components’ existing human
                       resource information systems into five enterprise-wide solutions.
                       We audited OCHCO to determine the progress DHS has made in
                       consolidating its component human resource information systems
                       in its Human Capital Business Systems (HCBS) unit.

                       DHS has made some progress in consolidating its human resource
                       systems. Specifically, HCBS has successfully migrated
                       components to the Office of Personnel Management’s (OPM)
                       Electronic Official Personnel Folder (e-OPF) system and the
                       United States Department of Agriculture’s (USDA) National
                       Finance Center (NFC) Pay and Personnel System (PPS). Further,
                       HCBS has taken steps to coordinate with components to identify
                       business requirements and system specifications for the
                       enterprise-wide systems, including EmpowHR, TalentLink and
                       Web Time and Attendance (WebTA).

                       However, as of February 2010, components have not migrated
                       from their existing systems to all of the enterprise-wide systems.
                       In addition, HCBS has not implemented adequate performance
                       metrics to track the status of the consolidation effort. Further,
                       enhanced communication and system functionality must be
                       improved to help facilitate the migration of components to the
                       department’s enterprise-wide systems. In addition, systems have
                       been certified and accredited without all documents and security
                       weaknesses being mitigated timely. Finally, WebTA has not been
                       certified and accredited according to applicable DHS policy.

                       We are making 11 recommendations to the Chief Human Capital
                       Officer. OCHCO concurred with all of our recommendations and
                       has already begun to take actions to implement them. The
                       department’s response is summarized and evaluated in the body of
                       this report and included, in its entirety, as Appendix B.


 Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                 Systems Consolidation Effort
 


                                             Page 1 

Background
                          In 2005, as part of the E-Government Act, OMB implemented a
                          government-wide initiative to eliminate redundancy and increase
                          efficiency in payroll and human resource systems. In response,
                          HCBS led an effort to consolidate components’ existing human
                          resource information systems into enterprise-wide solutions aimed
                          at improving security, efficiency, and consistency across the
                          department.

                          HCBS is responsible for consolidating more than 144 existing
                          component human resource systems into flexible enterprise-wide
                          solutions. While working with components, HCBS is responsible
                          for program management activities, communication and
                          coordination, and integration of information technology tasks for
                          this effort. As part of this initiative, HCBS is in the process of
                          consolidating component human resource systems into five
                          enterprise-wide solutions, including: (1) WebTA, (2) NFC PPS, (3)
                          EmpowHR, (4) TalentLink, and (5) e-OPF system. These systems,
                          which are also used by other federal agencies, support the
                          department with core human resource functions, such as records
                          management, time and attendance, personnel actions, recruitment,
                          and payroll. Figure 1 provides a brief description of each system.

                          Figure 1-Enterprise-wide Human Resource Solutions

               Name         Function     Owner                           Description
                            Personnel               System interfaces with the NFC’s Pay and Personnel
                             Actions/               System. System functions include creation of new job
             EmpowHR                     USDA
                            Personnel               codes (master records) and positions, reassignments,
                             Records                promotions, and awards.
                                                    System developed as a management solution to handle
                            Personnel
               e-OPF                     OPM        official personnel files and simplify employee access to
                             Records
                                                    official personnel folders.
                                                    System used by customer agencies for personnel action
                             Pay and                processing, position management, benefits processing,
              NFC PPS                    USDA
                            Personnel               payroll, payroll accounting, tax reporting, employee debt
                                                    management, and reporting.
                                                    System which allows DHS managers and recruiters to
             TalentLink     Recruiting   DHS
                                                    facilitate the hiring process.
                             Time and               Commercial off-the-shelf system used for time and
              WebTA                      DHS
                            Attendance              attendance functions.




 Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                 Systems Consolidation Effort
 


                                               Page 2
 

                       Our audit focused on three systems: TalentLink, WebTA, and
                       e-OPF. TalentLink, which is a web-based application, is used by
                       managers, recruiters, and human resource specialists to post job
                       vacancies, select, follow-up and hire potential job applicants. The
                       system is contractor owned and operated and most of the
                       equipment is currently housed at a commercial hosting facility in
                       New York City, New York. According to HCBS personnel, DHS
                       will discontinue the use of TalentLink and switch to a different
                       application in June 2010. WebTA is a web-based, commercial
                       off-the-shelf time and attendance labor solution. The system’s
                       functions include electronic approvals, project tracking and
                       activity-base time reporting, on-line leave requests, part-time
                       accrual calculations, year-end leave accruals, rollover and leave
                       transfers. DHS purchased licenses in 2005 and the system is
                       currently hosted by the USDA NFC in Denver, Colorado. The
                       e-OPF system is part of OPM’s Enterprise Human Resources
                       Integration initiative. This system provides government employees
                       with direct online access to their official human resource and
                       personnel records.

                       Due to the sensitive nature of the information stored and processed
                       by these human resource systems, DHS must implement effective
                       controls to protect personal data from potential misuse. According
                       to the United States Government Accountability Office, federal
                       agencies have reported numerous incidents where personally
                       identifiable information was stolen, lost, or improperly disclosed,
                       resulting in loss of privacy and identify theft. To safeguard against
                       stolen or unauthorized disclosure of personal data, OMB requires
                       federal agencies to ensure that proper safeguards are in place to
                       protect personally identifiable information.

Results of Audit
      Actions Taken to Implement Enterprise-Wide Human Resource
      Systems
                       DHS has taken actions to consolidate and migrate components’
                       human resource systems to the department’s enterprise-wide
                       solutions. For example, HCBS has:

                       �	 Migrated DHS components to NFC PPS in 2005 and e-OPF in
                          2008.



 Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                 Systems Consolidation Effort
 


                                             Page 3 

                      �	 Implemented user and test working groups for DHS
                         components to help identify business requirements and system
                         specifications.

                      �	 Certified and accredited TalentLink. Our review of the
                         certification and accreditation package revealed no significant
                         deficiencies.

                      �	 Established memoranda of understanding and interconnection
                         security agreements with NFC and OPM to define roles and
                         responsibilities for the management, operation, and security of
                         system connections.

                      �	 Implemented effective controls to protect the sensitive data
                         stored and processed by TalentLink. Our security testing
                         revealed only a few areas in need of improvement.

                      Despite these actions, DHS faces additional challenges with
                      implementing all of the enterprise-wide human resource solutions
                      at its components. For example, many DHS components are
                      reluctant to adopt the department’s enterprise-wide solutions.
                      More work remains to ensure that components’ existing human
                      resource systems are consolidated into the department’s
                      enterprise-wide solutions.

     Management Oversight Is Needed to Complete the Consolidation
     of DHS’ Human Resource Systems
                      DHS has made some progress, but has not completed its human
                      resource system consolidation effort. Senior DHS officials need to
                      provide better guidance and oversight to migrate components to
                      the department’s enterprise-wide human resource solutions.
                      Component officials stated that system functionality issues and
                      insufficient communication with HCBS contributed to their
                      reluctance to migrate. Further, DHS has not restricted its external
                      internet connections or maintained an accurate inventory of its
                      human resource systems, preventing the department from
                      achieving its efficiency objectives. Unless these issues are
                      addressed, DHS may not be able to achieve its goal of
                      consolidating and modernizing its human resource systems.




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 4 

                            Components Are Reluctant to Implement Enterprise-Wide
                            Systems

                            As of February 2010, nine DHS components have not completed
                            their migration to WebTA, EmpowHR, or TalentLink.1
                            Component officials indicated that some of the enterprise-wide
                            solutions do not satisfy their business requirements and the lack of
                            detailed cost savings information from HCBS has prevented them
                            from migrating. Consequently, components continue to use their
                            existing systems in lieu of the DHS enterprise-wide solutions.
                            Figure 2 summarizes the implementation status for the three
                            systems.

                            Figure 2-System Consolidation Progress

                                                    TalentLink        EmpowHR              WebTA
                              Components

                                 CBP              Not Started        Not Started        Not Started
                                  CIS             Not Started        Not Started        In progress
                                FEMA              In progress        Not Started         Complete
                                FLETC             In progress        Complete            Complete
                                  ICE             In progress        Not Started         Complete
                                NPPD              In progress        Complete            Complete
                                 TSA              Not Started        Complete            Complete
                                USCG              Not Started        Complete            Complete
                                 USSS             Not Started        Not Started         Complete

                                    Additional Oversight Is Needed

                                    Prior to January 2010, senior DHS officials had not issued
                                    any guidance to components on its human resource
                                    consolidation effort. Without the guidance, HCBS could
                                    not compel all components to migrate towards the
                                    enterprise-wide solutions. As a result, the progress to date


1
    The nine components are Customs and Border Protection (CBP), Citizenship and Immigration Services
    (CIS), Federal Emergency Management Agency (FEMA), Federal Law Enforcement Training Center
    (FLETC), Immigration and Customs Enforcement (ICE), National Protection and Programs Directorate
    (NPPD), Transportation Security Administration (TSA), United States Coast Guard (USCG), and United
    States Secret Service (USSS)



     Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                     Systems Consolidation Effort


                                                  Page 5
                                   has been limited as some components are reluctant to
                                   migrate to DHS’ enterprise-wide human resource systems.

                                   On January 15, 2010, the Deputy Secretary issued a
                                   memorandum tasking OCHCO and Office of Chief
                                   Information Officer (OCIO) to assemble and integrate a
                                   project team to rationalize legacy human resource
                                   processes and systems into a department-wide
                                   architecture.2 As outlined in the memorandum,
                                   components are prohibited from spending additional
                                   funding to purchase new or enhance existing human
                                   resource systems without the approval from either OCHCO
                                   or OCIO. The issuance of this memo will help HCBS to
                                   complete its human resource consolidation effort by
                                   providing additional oversight authority over components.
                                   For example, as mandated under the E-Government Act of
                                   2002 and OPM’s initiatives, HCBS has successfully
                                   facilitated the migration of NFC PPS and e-OPF throughout
                                   DHS.

                                   The lack of oversight authority over the components has
                                   also hindered HCBS’ ability to implement the human
                                   resource consolidation initiative. For example, HCBS does
                                   not have the authority to review components’ budgets to
                                   ensure that adequate resources are available for the
                                   initiative. According to HCBS personnel, some
                                   components have not fully engaged in the planning and
                                   implementation activities required to complete the
                                   initiative. For example, during the formative stages,
                                   components are willing to participate and engage in system
                                   planning and requirements analysis activities. However,
                                   once HCBS begins the implementation and acquisition
                                   activities, components often withdraw from the initiative
                                   stating that: (1) they are not ready to begin the migration
                                   effort, (2) they do not have sufficient resources to support
                                   the migration, or (3) the enterprise-wide solutions do not
                                   meet their mission or business requirements. In addition,
                                   HCBS personnel have stated that leadership changes at
                                   OCHCO and components that lead to different
                                   management priorities have slowed the migration efforts.


2
    DHS Enterprise Human Resources Processes, People, and Technology Memorandum, dated
    January 15, 2010.



     Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                     Systems Consolidation Effort
 


                                                 Page 6 

                              As part of DHS’ policy for exchanging and sharing internal
                              information, components are required to standardize the
                              information technology assets used to access, store,
                              process, and manage its information. To achieve this goal,
                              including standardization of its human resources assets,
                              DHS must provide OCHCO with adequate oversight
                              authority; otherwise it will be restricted from consolidating
                              information systems and infrastructure used to support the
                              department’s human resource operations.

                              Performance Metrics

                              HCBS has not developed adequate performance metrics to
                              track the overall progress of the consolidation effort.
                              Performance metrics are used to evaluate the progress of a
                              program or project and ensure that key milestones and
                              goals are being achieved.

                              While HCBS has developed performance measures to
                              evaluate the technical performance of the department’s
                              enterprise-wide systems, it does not have metrics to track
                              the overall progress of the initiative. For example, HCBS
                              keeps current metrics on security incidents, service desk
                              tickets, and system release data. In addition, HCBS tracks
                              the number of users and components that have migrated to
                              the enterprise-wide solutions on a quarterly basis.
                              However, HCBS has not developed performance metrics to
                              track the status of component requirements, interim tasks,
                              or activities that must be completed to ensure that
                              components successfully migrate to the enterprise-wide
                              systems.

                              Specific performance metrics can help HCBS track the
                              overall progress of the implementation effort rather than the
                              technical performance of individual systems. Examples of
                              additional performance metrics may include:

                              �	 Key requirements, milestones and accomplishments
                                 that have or have not been completed.

                              �	 Required deliverables or services that have or have not
                                 been completed.




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 7 

                                        �   Remaining tasks that must be completed.

                                        Performance metrics aimed at assessing the completion of
                                        component implementation requirements or activities will
                                        help HCBS personnel monitor the overall progress of the
                                        consolidation effort. In addition, such metrics will allow
                                        HCBS to determine the areas where additional focus is
                                        required.

                                        OMB requires agencies to implement performance metrics
                                        for planning, budgeting, and managing federal capital
                                        assets. These performance metrics should be used to
                                        monitor and compare expected results with actual
                                        performance of the project.

                                        Without specific performance metrics, it will be difficult
                                        for program officials to determine the overall progress of
                                        the project and whether expected results or outcomes have
                                        been achieved. In addition, detailed performance metrics
                                        will provide DHS with the ability to better monitor the
                                        components’ implementation progress and identify areas
                                        where improvements should be made.

                                        System Functionality and Communication Can Be
                                        Improved

                                        Components have cited functionality issues with the
                                        enterprise-wide systems and insufficient communication
                                        with HCBS as reasons for not migrating to all of the
                                        enterprise-wide solutions. For example, some components
                                        have identified functionality deficiencies with the
                                        enterprise-wide human resource systems, including issues
                                        with vacancy announcements and the certification process.3
                                        In addition, component officials stated that communication
                                        with HCBS regarding the consolidation effort could be
                                        improved. Specifically, HCBS should identify detailed
                                        cost savings to illustrate to components’ the potential
                                        benefits of migrating to the department’s enterprise-wide
                                        solutions.



3
    The certification process is used by hiring managers to identify a list of the best qualified applicants that
     may be considered for a vacancy announcement.



     Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                     Systems Consolidation Effort
 


                                                       Page 8 

                                  We met with selected personnel from component human
                                  resource offices and OCIO to identify possible concerns
                                  regarding the consolidation effort. Some components have
                                  indicated that the department’s enterprise-wide solutions do
                                  not satisfy their business requirements and that they have
                                  encountered functionality issues with some of the systems.
                                  Specifically, FEMA and NPPD have encountered issues
                                  with TalentLink and requested to replace the system with
                                  another system. FEMA indicated that TalentLink does not
                                  consistently post vacancy announcements to USAJobs and
                                  contains too many steps in the certification process.4 This
                                  cumbersome process has lengthened the amount of time for
                                  human resource staff to develop certificates containing the
                                  best qualified candidate lists. Similarly, NPPD stated that
                                  hiring managers experienced difficulty in reviewing the
                                  certificates of eligible applicants and often found that other
                                  critical documents such as resumes were inadvertently
                                  being removed from job applications. In addition, NPPD
                                  indicated that it takes nearly three times as long to post a
                                  vacancy position using TalentLink as in NPPD’s current
                                  system, USA Staffing. According to HCBS personnel,
                                  OCHCO is planning to discontinue the use of TalentLink in
                                  June 2010, as the department is participating in an OPM
                                  initiative to develop a new recruiting system that better
                                  suits federal agencies’ needs.

                                  Components also expressed concerns with EmpowHR and
                                  stated that they will not implement the system until it is
                                  equal to or better in terms of functionality and cost than
                                  their current systems. For example, USSS does not plan to
                                  adopt EmpowHR until HCBS provides sufficient
                                  information to convey the benefits of retiring HRConnect.5
                                  TSA has also encountered functionality issues when using
                                  EmpowHR. For example, when information is edited with
                                  a front-end system other than EmpowHR, the data changes
                                  will be updated in NFC’s mainframe computer but not in
                                  EmpowHR’s database tables. Consequently, the data
                                  stored in the NFC mainframe and EmpowHR’s database
                                  tables become inconsistent. As a result, dual entries must


4
  USAJobs is an OPM system used to post job openings for the federal government. It interfaces with
  TalentLink.
5
  HRConnect provides USSS with quick hire staffing solutions and handles personnel transactions.



    Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                    Systems Consolidation Effort
 


                                                 Page 9 

                              be performed to correct the discrepancies which results in
                              additional costs and time to TSA.

                              HCBS personnel said that they have been working with
                              NFC to remediate the deficiencies identified by the
                              components. According to HCBS personnel, they have
                              stopped deploying EmpowHR at components until the
                              deficiencies identified are resolved.

                              Finally, four components (CBP, NPPD, TSA and USSS)
                              said that HCBS has not communicated effectively or
                              accurately about the potential cost savings of migrating to
                              the enterprise-wide solutions. As a result, components are
                              reluctant to replace their current systems with the
                              department’s enterprise-wide solutions until HCBS
                              identifies projected cost savings.

                              As part of the E-Government Act, agencies are required to
                              make use of information technologies, including the
                              reduction of duplicate and fragmented systems. To meet
                              this requirement and complete the human resource
                              consolidation effort, HCBS must continue to work with
                              components to address the deficiencies in system
                              functionality. In addition, HCBS must convey the detailed
                              cost savings to components and provide them with systems
                              that adequately meet their needs. Unless these tasks are
                              achieved, DHS cannot complete the consolidation effort.

                      Human Resource System Inventory

                      HCBS has not identified all human resource systems at the
                      components. Without an accurate inventory of human resource
                      systems, HCBS cannot determine whether components are using
                      redundant systems.

                      While HCBS maintains a list of the department’s human resource
                      systems, it is outdated and inaccurate. According to HCBS
                      personnel, the inventory list has not been updated since 2007. In
                      addition, HCBS officials stated that components are not obligated
                      to respond to HCBS’ information requests to update its inventory
                      list of human resource systems. As a result, components provided
                      either limited information or did not respond at all. As of




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 10 

                      December 2009, HCBS’ inventory list identifies 58 unique human
                      resource systems.

                      In October 2009, we requested components to identify their human
                      resource systems and to evaluate the accuracy of systems
                      maintained by HCBS. In response, components identified a total
                      of 48 human resource systems. We attempted to verify the
                      information obtained with the system inventory maintained by
                      DHS OCIO. However, the DHS OCIO inventory does not have an
                      identifier to distinguish those systems that process human resource
                      functions, such as records management, time and attendance,
                      personnel actions, recruitment, and payroll functions. Without the
                      identifier, we could not evaluate the accuracy of information
                      obtained. The discrepancy between HCBS’ inventory and the
                      responses to our data call is an indicator that DHS cannot account
                      for all of its human resource systems.

                      Components Maintain Network Connections Outside of DHS
                      Trusted Internet Connections

                      As of March 2010, 5 components maintained 11 external network
                      connections to NFC that are outside of the DHS trusted internet
                      connections (TIC). These connections provide users with access to
                      personnel systems owned and housed at NFC, including WebTA,
                      EmpowHR, and NFC PPS. Figure 3 provides an overview of the
                      external connections that are maintained by components.

                      Figure 3-External Connections to NFC

                                                              Number of External
                                   Component                  Network Connections
                                  FEMA                                  3
                                   TSA                                  6
                                CBP/FLETC                          1 (shared)
                                  USCG                                  1
                                  Total                                11

                      We attempted to verify the number of connections with NFC and
                      components. However, we were unable to reconcile the
                      differences between the information provided by NFC and the
                      components. According to an HCBS official, DHS does not have
                      adequate visibility over its components’ external network




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort
 


                                           Page 11 

                            connections. However, HCBS is working with OCIO to
                            consolidate existing component connections.

                            In November 2007, OMB required agencies to consolidate internet
                            points of presence and reduce external network connections to
                            improve efficiency and security.6 DHS OCIO aligns OMB’s TIC
                            initiative with its OneNet consolidation project.7 By allowing
                            components to maintain their own network connections to NFC, it
                            contradicts OMB’s TIC and DHS OneNet initiatives to improve
                            efficiency and security by reducing the internet points of presence.
                            These connections increase the number of internet points of
                            presence and may pose a security risk to department data if
                            security controls are inadequate.

                    Recommendations:
                            We recommend that the OCHCO direct HCBS to:

                            Recommendation #1: Develop specific performance metrics to
                            help track the overall progress of the consolidation effort.

                            Recommendation #2: Improve communication and coordination
                            with components to address system functionality issues and convey
                            detailed cost savings for system migration.

                            Recommendation #3: Work with DHS OCIO and components to
                            identify and track all human resource systems.

                            Recommendation #4: Coordinate with OCIO to ensure that
                            components comply with OMB TIC and DHS OneNet initiatives
                            to reduce internet points of presence for human resource
                            connectivity.

                    Management Comments and OIG Analysis
                            DHS concurred with recommendation 1. OCHCO indicated that,
                            with the change in leadership and direction, it is currently revising
                            the OMB Exhibit 300, operational plan, and program metrics.

6
    OMB memorandum 08-05, Implementation of Trusted Internet Connections, dated November 20, 2007.
7
    The purpose of OneNet is to consolidate and standardize a network architecture and improve cost
    effectiveness across the enterprise. OneNet will eventually integrate with component wide area networks
    to reduce the number of fragmented component networks and provide DHS with a secure, in-house global
    communications solution with centralized management and configuration capabilities.



     Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                     Systems Consolidation Effort
 


                                                   Page 12 

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 2. In its response, OCHCO
                      indicated that project teams are working with component
                      functional experts to define and develop requirements.
                      Furthermore, HCBS is currently reworking the intake and change
                      control process to better accommodate changes and requests in
                      real-time. Improved metrics capability will also enhance
                      OCHCO’s ability to consistently deliver cost data during different
                      stages of the project. Finally, a strategic Human Resources
                      Information Technology Council is also being established to
                      improve communication and component feedback.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 3. OCHCO responded that
                      it will work with OCIO to create a unique identifier within the
                      department’s system inventory tool to identify human resources
                      systems.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 4. In its response, OCHCO
                      indicated that OCHCO and OCIO are working with components to
                      determine the business requirements and bandwidth usage, and to
                      identify and implement the appropriate type and set of DHS
                      OneNet connections that are required to process NFC payroll and
                      personnel transactions.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 13 

     Enhancements Can Be Made to TalentLink’s Technical Controls
                      Overall, the controls implemented on TalentLink were effective to
                      protect the sensitive data stored and processed by the system. Our
                      evaluation included testing for vulnerabilities on the database and
                      selected servers and network devices for compliance with DHS
                      guidance. In addition, we manually reviewed system
                      configurations and interviewed system administrators on system
                      management processes. Our security testing and analysis revealed
                      that improvements can be made to administrator account
                      management, system management procedures, and configuration
                      settings. DHS needs to address these issues to reduce the security
                      risks to its human resource systems.

                      Administrator Accounts are Inadequately Managed

                      DHS has not implemented effective controls on administrator
                      accounts to ensure that they are granted with the least privileges to
                      perform their job functions. In the event of a security incident, the
                      scope of potential damage to the system increases as users are
                      granted excessive access privileges. A security incident targeting
                      an administrator account might include an authorized user abusing
                      his or her access or exploitation from an outsider gaining
                      unauthorized control of an account. For example:

                      �	 Administrators’ connections to servers are not timed out after
                         more than 30 minutes of inactivity. In most cases, these
                         accounts are not locked out until after 60 minutes or 24 hours
                         of inactivity. According to system administrators, this
                         extended log-in time is needed to keep administrative tasks
                         active for extended periods of time, such as file transfers to the
                         logging server. An HCBS official indicated that the system is
                         intentionally misconfigured for the convenience of
                         administrative tasks. OMB requires that remote users
                         accessing personally identifiable information be
                         re-authenticated after 30 minutes of inactivity. DHS requires
                         that user sessions be terminated after 60 minutes of inactivity
                         to protect sensitive data.

                      �	 The Oracle remote login password file is in use, which allows
                         remote administrators to automatically authenticate to the
                         database without entering username and password. According
                         to an HCBS official, this is an oversight that the remote login



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort


                                           Page 14
                          password file is still in use. DHS requires that the Oracle
                          remote login password file be disabled to enforce server-based
                          authentication of users connecting to the database.

                      �	 Six accounts have been granted the elevated CREATE ANY
                         LIBRARY privilege in the Oracle database, while there are
                         only two database administrators for TalentLink. The
                         CREATE ANY LIBRARY privilege allows an Oracle user to
                         define a library, or code and data. An attacker could use it to
                         access the operating system. HCBS officials could not provide
                         an explanation why the other four accounts were granted the
                         elevated privilege. Database administrators are granted
                         privileges to create new databases and alter and delete data.
                         DHS requires that access permissions including CREATE
                         ANY LIBRARY be restricted to database administrators.
                         Further, DHS requires that users’ access be restricted to the
                         least privilege to perform job duties.

                      Elevated access to system resources and data should be limited and
                      managed appropriately. Without effective measures to restrict
                      access to servers and sensitive data, DHS may be at risk of an
                      individual engaging in fraudulent or malicious behavior resulting
                      in unauthorized alteration, loss, unavailability, or disclosure of
                      information.

                      Patch and Privileged Account Management Processes

                      The procedures for patch management and privileged account
                      management processes have not been developed for TalentLink.
                      DHS requires that a policy be developed to define the roles and
                      responsibilities of the patch management process and deployment
                      status. DHS also requires that user access be documented in access
                      control policies and procedures. Both tasks are controlled by
                      HCBS personnel who considered formal, step-by-step directions
                      unnecessary.

                      Documenting processes will help personnel identify, understand,
                      and consistently implement requirements, minimizing the risk of
                      human error. In the event of staffing or contract changes, patching
                      and privileged account management processes may be neglected
                      due to lack of documented procedures. Unmanaged privileged
                      accounts and missing patches leave the system at risk of user abuse
                      and external cyber attack.



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 15 

                      Process for Destruction of Personally Identifiable Information
                      Extracts

                      HCBS has not implemented a process for destroying
                      computer-readable personally identifiable information extractions.
                      Specifically, TalentLink allows users to extract personal
                      information in the form of reports on various hiring statistics and
                      information. OMB requires that agencies ensure
                      computer-readable data extracts that contain personally identifiable
                      information be erased within 90 days or when no longer needed.
                      However, HCBS staff considers that it would be infeasible to
                      ensure that all personal information extractions are erased as users
                      are spread throughout DHS and cannot operate without reports.

                      Enforcing the destruction of personally identifiable information
                      extractions helps reduce the amount of sensitive data that is
                      physically removed from department locations or that is accessed
                      remotely. Destroying extracts also prevents misuse of sensitive
                      data.

                      Database and Server Configuration

                      The TalentLink Oracle database and servers are not configured
                      according to DHS policy. We identified deficiencies in
                      configuration settings that may lead to unauthorized misuse of
                      sensitive data. Specifically:

                      �	 Audit trails are not enabled on the Oracle database to track user
                         account activity. DHS requires that audit trails be enabled to
                         capture detailed user activity records in the database. User
                         access, use of system privileges, and changes to the database
                         should be logged to help investigate and reconstruct future
                         security incidents.

                      �	 A contractor’s warning banner is used instead of the required
                         DHS banner during server logins. DHS requires that a specific
                         login warning banner be displayed when connecting to a
                         system to remind users of their responsibilities in using
                         government-owned equipment.

                      �	 A high-risk vulnerability that has been identified since 2004
                         was found on an application server. The JBoss software
                         running on the application server is configured in a way that



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort


                                           Page 16
                                 allows unauthenticated access to certain administrative
                                 functions of the software.8 A remote attacker could exploit the
                                 vulnerability to disclose sensitive information or take control of
                                 JBoss. DHS requires that software patches be applied in a
                                 timely manner to protect the system from known exploits.

                             Audit trails are essential to the investigation and reconstruction of
                             security incidents. In particular, access to personal data in the
                             Oracle database should be closely tracked, with all actions tied to
                             individual users. The lack of audit trails combined with excessive
                             privileges granted to database users puts the system at significant
                             risk of data misuse. Violations could go unnoticed or may not be
                             traceable to individual users once discovered.

                             Memorandum of Agreements With Other Agencies

                             While HCBS has established memorandum of agreements with
                             NFC and OPM, the agreements do not contain terms that will
                             allow DHS and OIG unrestricted access to system specific
                             resources, such as vulnerability scan results, appropriate technical
                             staff, and information related to system connections between NFC
                             and DHS. Unrestricted access to the information is essential to
                             verify that effective controls have been implemented on DHS’
                             human resource systems that are owned and operated by other
                             agencies.

                             As part of our original audit scope, we planned to perform security
                             testing to evaluate the effectiveness of controls implemented on all
                             enterprise-wide systems. However, USDA and OPM personnel
                             were reluctant to provide us with access to the information for the
                             systems selected for review, i.e., NFC testing results, connections
                             between NFC and components. The limitations restricted our
                             ability to perform planned security testing. For example, NFC
                             indicated that the agency does not plan to allow other federal
                             agencies to perform security testing on systems that it maintains.

                             Without such access, HCBS cannot ensure that security tests are
                             being performed periodically and that effective controls have been
                             implemented on its human resource systems. Unless HCBS
                             revises its existing memoranda of agreement to include the
                             provisions for unrestricted access to system specific information,

8
    JBoss is a software framework for an application server that supports Java application development.



     Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                     Systems Consolidation Effort
 


                                                    Page 17 

                      DHS cannot guarantee that all applicable security requirements
                      have been met for its human resource systems which are owned
                      and operated by other agencies.

             Recommendations:
                      We recommend that the OCHCO direct HCBS to:

                      Recommendation #5: Develop policies for patch management,
                      privileged account management, and the destruction of personal
                      data extracts for TalentLink.

                      Recommendation #6: Restrict TalentLink administrator access
                      permissions by granting the least privileges needed to perform job
                      functions in accordance with applicable OMB and DHS policy.

                      Recommendation #7: Configure TalentLink’s database and
                      servers according to DHS policy.

                      Recommendation #8: Revise existing memoranda of
                      understanding with other agencies to ensure that system specific
                      information is available to HCBS and the OIG.

             Management Comments and OIG Analysis
                      DHS concurred with recommendation 5. OCHCO commented
                      that, due to the Software as a Service (SaaS) provision of
                      TalentLink, the patch management and privileged account
                      management processes are owned by the application provider.
                      HCBS reviewed these processes and validated they were consistent
                      with DHS requirements. However, to be consistent with DHS
                      policy, OCHCO concurred that HCBS should have drafted
                      TalentLink-specific patch management and privileged account
                      management SOPs and utilized the application provider documents
                      as the basis. Since OCHCO will discontinue the use of TalentLink
                      in June 2010, HCBS does not plan to create a Plan of Action and
                      Milestones (POA&M) to develop policies for a system that will
                      soon be retired.

                      Regarding personal data extracts, OCHCO responded that while
                      the protection of computer-readable extracts containing personally
                      identifiable information was incorporated in DHS guidance before
                      TalentLink went live, the implementation directive was not



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort


                                           Page 18
                      published until July 31, 2009. Thus, HCBS was not able to
                      complete a thorough analysis to determine what computer-readable
                      extracts (routine or ad hoc) would be utilized by the system prior to
                      the decision to decommission the system. All users of the system
                      are required to complete annual Computer Security Awareness
                      Training and Privacy Training, so users are trained in the proper
                      handling of personally identifiable information.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 6. Regarding the
                      Administrator’s Connections and Oracle Remote Login Password
                      File, OCHCO responded that due to the SaaS provision of this
                      system, certain configurations are beyond the control of DHS.
                      OCHCO was aware of this issue, but the application provider was
                      not willing to change the settings as it would cause undue burden
                      on the application’s operating capability. Due to the fact that the
                      TALENTLink system is being decommissioned and will be
                      shut-down on June 26, 2010, HCBS does not plan to create a
                      POA&M to correct the deficiency.

                      Regarding the elevated Oracle Accounts, OCHCO responded that
                      there are a total of eight accounts, comprised of two database
                      administrators and six users, with the “CREATE ANY LIBRARY”
                      privilege. The six user accounts must exist on each of the
                      application provider databases so that the application can be
                      operated correctly and, since the six users do not require full
                      database administrator access, limiting these accounts to this
                      privilege is actually more restrictive and in-line with the concept of
                      Least Privilege. The alternative would be to grant these six users
                      full DBA access, but this would give them more privileges than
                      required.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 7. Regarding the audit trails
                      and warning banner findings, OCHCO responded that due to the



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort


                                           Page 19
                      SaaS provision of TalentLink, certain configurations are beyond
                      the control of DHS. Although the Oracle Hardening guide is not
                      strictly adhered to, there are other tracking capabilities built into
                      the application to allow auditing. Additionally, although the
                      proper warning banner is not provided when logging on locally to
                      the server, the proper DHS warning and privacy banners are
                      provided for all users and candidates accessing the system.
                      According to OCHCO, HCBS was aware of these issues, but the
                      application provider was not willing to change the settings because
                      it would cause undue burden on the application’s operating
                      capability. Since OCHCO will discontinue the use of TalentLink
                      in June 2010, HCBS does not plan to create a POA&M to correct
                      the deficiencies for a system that will soon be retired.

                      Regarding the JBoss vulnerability, OCHCO commented that the
                      weakness was identified prior to the OIG scan. Subsequently, a
                      new system build was subsequently required for TalentLink.
                      However, the new system build was not consistently deployed
                      prior to the OIG scan. The vulnerability has since been remediated
                      in all zones.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 8. OCHCO responded that
                      while OCHCO agrees with the intent of the recommendation, DHS
                      policy does not support the performance or security testing on
                      another agency’s IT systems. Based on DHS policy, the
                      connection is to be well-documented with emphasis on the
                      responsibilities of the two organizations including maintaining a
                      valid authority to operate, incident reporting, training and
                      awareness, etc. OCHCO will include specific language in future
                      Memoranda of Agreement/Understanding to document mutual
                      responsibility and roles for security systems.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 20 

     Certification and Accreditation Deficiencies Identified in Human
     Resource Systems
                      HCBS has not ensured that all OMB and DHS security
                      requirements are met on its enterprise-wide human resource
                      systems. Specifically, e-OPF has been certified and accredited
                      without all required security documents. In addition, while
                      POA&Ms are being created to track and identify security
                      weaknesses, the corrective actions for one third of the POA&Ms
                      are more than 90 days past due. Further, WebTA has not been
                      certified and accredited in accordance with applicable DHS policy.

                      Certification and Accreditation Documentation is Incomplete

                      Our review of the e-OPF certification and accreditation packages
                      revealed that not all of the required security documents have been
                      developed. For certification and accreditation purposes, OPM
                      divided e-OPF into: (1) a front end application, (2) the Chantilly
                      Scanning Facility, and (3) the Ashburn Data Center systems. We
                      reviewed the accreditation packages for the e-OPF front-end
                      application and Chantilly Scanning Facility for compliance with
                      applicable OMB and National Institute of Standards and
                      Technology (NIST) guidance. Configuration management plans
                      were not developed for either system. Configuration management
                      plans provide guidance to ensure that any subsequent change to a
                      system is approved and that all recommended and approved
                      security patches are properly installed.

                      Agencies are required to certify and accredit their systems in
                      accordance with OMB and NIST guidance, including all security
                      artifacts. Certification and accreditation requirements must also be
                      satisfied for systems owned and operated by outside agencies or
                      contractors.

                      According to HCBS officials, they have tried to maintain
                      appropriate adherence to certification and accreditation standards
                      for systems that are owned and operated by contractors including
                      e-OPF, WebTA, and TalentLink. However, they have had
                      difficulty in performing continuous monitoring functions, detailed
                      reviews, and yearly site visits on contractor systems due to limited
                      staffing. Further, HCBS relies solely on its yearly site visits to




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort


                                           Page 21
                      ensure that human resource systems comply with certification and
                      accreditation package protocol and guidance.

                      Without configuration management plans, program officials cannot
                      ensure that e-OPF has been properly configured and that security
                      patches are applied periodically. Therefore, DHS has limited
                      assurance that the sensitive information of its employees is secured
                      in accordance with applicable policies.

                      Security Weaknesses Are Not Being Mitigated In a Timely
                      Manner

                      Security weaknesses in e-OPF POA&Ms are not being maintained
                      or mitigated in a timely manner. As of February 22, 2010, the
                      corrective actions for 28 of 110 POA&Ms are more than 90 days
                      overdue. In addition, 21 of these overdue POA&Ms are more than
                      one year past due and four are classified as “critical”. Critical
                      security weaknesses should be mitigated in a timely manner to
                      ensure that they cannot be exploited to gain unauthorized access to
                      the system.

                      Agencies are required to create POA&Ms for all known security
                      weaknesses that cannot be immediately mitigated. In addition,
                      POA&Ms are part of the continuous monitoring process to ensure
                      that security weaknesses are mitigated timely. Further, OMB
                      requires POA&Ms be prioritized in varying levels of criticality
                      depending on how management categorizes the weakness in order
                      to efficiently and effectively protect systems.

                      Without the timely mitigation of POA&Ms, agencies cannot
                      ensure that security weaknesses are properly addressed before they
                      can be exploited. Security weaknesses not mitigated timely may
                      expose the personal data of DHS employees.




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 22 

                           WebTA Has Not Been Certified and Accredited in Accordance
                           with DHS Policy

                           As of March 2010, WebTA had not received the authority to
                           operate in accordance with DHS policy. For Federal Information
                           Security Management Act reporting purposes, the Office of Chief
                           Information Security Officer (OCISO) reviews accreditation
                           packages for all systems in the systems inventory for compliance
                           with applicable DHS and NIST guidance. Without the OCISO’s
                           validation of certification and accreditation artifacts, a system
                           operates without authority.

                           WebTA was originally certified and accredited by NFC in October
                           2006. In August 2009, HCBS and NFC agreed that DHS should
                           certify and accredit the system as the department owns the WebTA
                           licenses and data. Specifically, HCBS purchased the license for
                           WebTA in 2005 for $1,000,000 and pays the annual maintenance
                           cost of $802,000.9 Subsequently, the WebTA authorizing official
                           certified and accredited the system in October 2009.10 However,
                           security personnel from the Management Directorate disagreed
                           with the assessment and removed WebTA from DHS OCIO’s
                           systems inventory in October 2009. Security personnel from the
                           Management Directorate indicated that DHS does not have control
                           over WebTA because it is hosted on NFC’s infrastructure,
                           preventing them from performing detailed tests or configurations.
                           As a result of WebTA’s exclusion from DHS’ system inventory,
                           OCISO has not recognized the system’s authority to operate.
                           However, this exclusion is not justified. WebTA should be
                           included in OCIO’s system inventory because the department owns
                           the WebTA license and is responsible for protecting the personal
                           data of its 180,000 employees.

                           According to DHS inventory guidance, a system’s owner is based
                           primarily on system ownership and funding, which HCBS is
                           responsible for since the deployment of the system. According to
                           applicable OMB and DHS guidance, information systems are to be
                           accounted for in agencies’ inventory and must be authorized to
                           operate.


9
   Annual maintenance estimate was determined by averaging DHS’ WebTA maintenance cost over a
   five-year period.
10
   An authorizing official assumes responsibility for operating an information system at an acceptable level
   of risk.



    Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                    Systems Consolidation Effort
 


                                                  Page 23 

             Recommendations:
                      We recommend that the OCHCO direct HCBS to:

                      Recommendation #9: Establish a process to ensure that all
                      contractor owned and operated human resource systems are
                      certified and accredited according to applicable OMB and NIST
                      guidance. In addition, all required security documents must be
                      developed according to applicable OMB and NIST guidance, and
                      security weaknesses identified must be mitigated timely.

                      Recommendation #10: Strengthen the department’s monitoring
                      oversight of POA&Ms for non-DHS human resource systems.

                      Recommendation #11: Certify and accredit WebTA to operate
                      according to applicable OMB, NIST, and DHS guidance.

             Management Comments and OIG Analysis
                      DHS concurred with recommendation 9. According to OCHCO,
                      the human resources systems cited in the report are considered
                      External Information Systems (EIS). These systems are managed
                      by another government agency and are provided as a paid service
                      for DHS use. The responsibility for performing certification and
                      accreditation on these systems is solely that of the host government
                      agency. OCHCO will strengthen the Memorandum of
                      Agreements/Understanding between the other government
                      agencies to clearly delineate the responsibility for the systems to be
                      squarely on the host government agency and that results are
                      available to OCHCO.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 10. OCHCO responded that
                      the human resources systems cited in the report are considered
                      EIS. These systems are managed by another government agency
                      and are provided as a paid service for DHS use. The responsibility
                      for security and management of these systems is solely that of the
                      host government agency. The POA&M deficiencies noted in this
                      report are not DHS specific, and OPM has made significant



Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 

                                Systems Consolidation Effort
 


                                           Page 24 

                      progress in closing more than 100 POA&Ms noted during prior
                      year assessments of the systems.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.

                      DHS concurred with recommendation 11. OCHCO responded that
                      WebTA is currently being recorded in the OCIO inventory as an
                      EIS. The system is managed by USDA as part of their mandate to
                      be a provider of this type of service for other government agencies.
                      The responsibility for security and management of this system is
                      clearly delineated as USDA’s responsibility. However, OCHCO
                      noted that HCBS must decide whether to accept the NFC line of
                      software codes. The decision will determine whether NFC or DHS
                      should assume the ownership as well as the responsibility to certify
                      and accredit the system. Currently, HCBS is working with OCIO
                      to have the issue resolved.

                      We agree that the steps that DHS is taking, and plans to take, begin
                      to satisfy this recommendation. This recommendation will remain
                      open until DHS provides documentation to support that all planned
                      corrective actions are completed.




Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                Systems Consolidation Effort
 


                                            Page 25 

Appendix A
Purpose, Scope, and Methodology

                        The objective of our review was to determine whether DHS has
                        developed a program to improve the efficiency, effectiveness, and
                        consistency of its human resource systems. Specifically, we
                        determined whether: (1) DHS has developed an adequate strategy
                        to consolidate components’ existing human resource systems into
                        an enterprise-wide solution; (2) DHS has implemented effective
                        physical and system security controls to protect sensitive
                        information stored and processed by its human resource systems;
                        and (3) the enterprise-wide system, including those owned and
                        operated by other agencies, were certified and accredited in
                        accordance with applicable guidance.

                        We interviewed selected personnel from DHS OCHCO, USDA
                        NFC, major components, Department of the Treasury Bureau of
                        Public Debt in Parkersburg, West Virginia and at one contractor
                        facility in New York City, New York. Further, we reviewed and
                        evaluated DHS’ security policies and procedures, system project
                        plans, technical descriptions, certification and accreditation
                        packages, and other appropriate documentation. In addition, we
                        reviewed USDA’s Statement on Auditing Standards No. 70 Report
                        on National Finance Center General Controls - Fiscal Year 2009
                        to ensure NFC systems were certified and accredited and no major
                        deficiencies were identified. We used software tools, Nessus and
                        DBProtect, to detect, analyze, and evaluate the effectiveness of the
                        security controls implemented on selected human resource systems
                        to identify known security vulnerabilities and evaluate whether
                        systems are properly configured in accordance with applicable
                        guidance. Due to limitations for systems owned and operated by
                        other agencies, we only performed security testing on TalentLink.

                        We conducted this audit between October 2009 and April 2010
                        according to generally accepted government auditing standards.
                        Those standards require that we plan and perform the audit to
                        obtain sufficient, appropriate evidence to provide a reasonable
                        basis for our findings and conclusions based on our audit
                        objectives. We believe that the evidence obtained provides a
                        reasonable basis for our findings and conclusions based on our
                        audit objectives. Major OIG contributors to the audit are identified
                        in Appendix C. The principal OIG points of contact for the audit
                        are Frank W. Deffer, Assistant Inspector General, Information
                        Technology Audits, at (202) 254-4100, and Chiu-Tong Tsang,
                        Director, Information Security Audit Division, at (202) 254-5472.



  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                              Page 26 

Appendix B
Management Comments to the Draft Report


                                                                                            qJb . . . OI<f_c...... ~.
                                                                                            11.s.ll<Jooo~<tfIl_.. s...nr,




                                                                              .
                                                                                            .....- - - . UC lG'21




                                                                         •.
                                                                              ,
                                                                                  ".,
                                                                                        '   Homeland
                                                                                            Security

            MEMORANDUM FOR:                Riehard L SkinncT
                                           Inspector <kneral

            FROM:                          Jef1Tcy R. Nea'~"1U-.....Q ' - -
                                           Chief Human &;b.J~~
            SUBJECT:                       Response to OIG Draft Report - MatIQgen~nl o."ersighl and
                                           Compomml Participafion ore Nuessary 10 CompJele DHS flr/mon
                                           ResollN:f'S SySII.'ms ColtSoliJolion J£ffori - FOUO


            This memorandum responds to thc Oflicc of Inspector General (DIG) draft report entitled,
            Management O\"l!rs;gll1 onJ Compul1e/1/ l'articipU/iol1 are !VeceS5tlry 10 Comple'" DIlS Ill/mmr
            Resollrces S)'!I/ems ConsoliJal;on Efforl- FOVO, dated April 2010, I concur with the II
            IttOmmmdaliOl1S outlined in the report, The follo\\lng response outlines actions 10 address these
            recommendations.

            One ofttlc systems which was re\'lewed during this audit. TAl..f1>,'TLink. is bcing decommissioned
            cfreeth'e 26 June 2010. This action "u taken at my direction. 1lJc Dcpanmcnt is partncring "ith
            OPM on futW"C entaprisc hiring Systclll solutions.

            Rccommcndation I - Concur
            With the change in lead<-rship and direction. the 01f1CC of the Ch~fHuman Capital Officer
            (OCHCO) is currently fe','ising the OMIl 300. operational plan.. and program metrics.

            Recommmdation 2 - Concur
            Projecl teams work with functional experts from components to define and develop requirements,
            The Human Capital Business S)'stems (HCIlS) tcam ofOCHCO is currently reworking the intake
            and change control process to better accommodate changes and requests in real·time, Improved
            metrics capability (from Ill, above) "'ill also improve our ability to consistently deliver COSt data at
            all stages ofche project, A strategic lIRIT council is also being established to improve
            commW1ieation and component feedback.

            RC'COllllI'lCtIltion J - Concur
            OCHCO "111 continuc to ....'Od: "lth OCIO to create a W1iquc identifier within the Department's
            Inventor)' Tool to specify human resources s)'stems.

            Recommendation" . Concur
            QCHCO and OCIO. to include DHS OrleNe!. have agreed to wort "lth DHS componcnl5to
            dctcrmillC business requirements. band..... idth usage. and 10 identify and implementthc appropriate




  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                                         Page 27 

Appendix B
Management Comments to the Draft Report




            I)Jle and SCi ofDHS OrleNet MPLS VPN OOIlne<:lions required for National Finance Center
            payroll and personnel processing.

            Recommendation S - Concur
            Patch Management & Privileged Account Management SOPs: Due to the Softwan: as a Service
            (SaaS) provision of this system. Patch Management and Privileged Account Management
            processes are owned by the application pro\'ider. DHS reviewed these processes and \'alidated
            they were consistent with DHS requirements. Howe\'er. (() be consistent with DHS polic)', HCBS
            should have drafted TALENTLink-specific Palch Management and Privi~ Aceount
            Managemenl SOPs and utilized the application pro\'ider documents as the basis, Due (() the f(ttt
            that the TALENTLink S)'stern is being deconunissioned and will be shut-<!own on 26 June: 2010.
            we do 00( recommend the creation ofa POA&M.

            PI1 Data Extracts: Allhough protection ofcomputer-readable extracts containing SPlI was
            incorpor,lted in OI'IS guidance before TALENTLink went livc. the implememation directive was
            not published until 31 July 2009, Thus, HCBS was not able to complete a thorough analysis to
            determine what CREs (routine or ad hoc) would be utilized by the system prior to the dedsionto
            decommission the s)'stern. All lISen of the s)'stem are required to complete annual Computer
            Security AwamleS$ Training and PII Training. so users are trained in the proper handling of PI!.

            Recommendation 6 • Concur
            Administrator's Conneclions and Oracle Remote Login Password File: Due to the SallS
            pro\'ision ofthis system. eenain configurations are beyond the control ofDHS, We were aware
            of this issue. but the appliC<ltion provider was not willing to change the settings bcl::ause it would
            cause undue burden on the application's operating capability. Due to the fact that the
            TALENTLink system is being decommissioned and will be shut-down on 26 June 2010. we do
            not recommend the creation ofa POA&M.

            EIe\lIted Oracle AlXOUIlts: There are a tota1 of eight acwunts. comprised oftwo DBAs and six
            l15trS.with the "'CREATE ANY LIBRARY- privilege. The six user accounts must exist on each
            of the applicalion pro\idcT databases so that the application can be operated COI'T«tly and. since
            the six users do not require full DBA access.. limiting these accounts 10 this privilege is actually
            more restrictive and in-line with the concept of Least Privilege. Thc alternative would be to gran1
            thcse six users fuJI DBA access, bU1this would give thcm more privileges than required.

            RC'Commendation 7 - Concur
            Audit Trails and Warning Banner: Due to the saaS provision of this S)'stem. certain
            configurations are be~'ond the control ofOHS, Although the Oracle Hardening guide is 00(
            strictly adhered to. there are otheT tracking capabilities buill into the application to allow
            auditing, Additionally. although the proper warning banner is not prO\ided whm logging on
            Iocall)' 10 the server. the proper DHS warning and pri\'aq' banners arc provided for all user.; and
            candidates accessing the system, We wcre aware ofthesc issues. but the application pro\ider was
            not willing to change the sellings because it would cause undue burden on the application's
            operating capability. Due 10 the fact that the TALENTLink system is being decommissioned and
            will be shut-down on 26 June 2010. we do not r«Qmmend the creation ofa POA&M,




  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                                          Page 28 

Appendix B
Management Comments to the Draft Report




            180ss Vulnerability; This nJlnerability was identified prior to the O[G scan; however. a new
            build \\as required and not all zones recci\'ed the new build prior to the scan. The 'lUlnerabi1it~'
            has since been remcdiated in all zones.

            Recommendation 8 - Concur
            Although we: agree \\;th the intent ofthe ~ndation. DHS policy does not suppon the
            pc:rfonnance: or security testing on another agency's IT S)'Stems. Based on DHS policy. the
            connection is to be well-documented with emphasis on the responsibilities ofthc: two
            organizations including maintaining valid ATO. incident reponing, training and awareness. etc.
            OCHCO will include specific language: in future Memoranda of AgreementlUndeTStanding to
            document mutual rc:sponsibilit)· and roles for seeurity systems.

            Recommendation 9 - Concur
            The: HRIT s)'slems cited. in the report are: considered Extemallnformation S)'stems (£1$). Thc:sc:
            S)'stcrns arc: managed by another !lO\'c:mment agency and arc provided as a paid ser",ice for DHS
            use. The responsibility for Ccnificalion and Accrc:dilation (C&A) ofthc:se S)'stmls is solei)' that
            of the host. gO\'cmmcnt agmcy. OCHCO will strengthen the Memorandum of
            Agrccmc:ntsIUndc:manding be:twcc:n the other !lO\'cmmcnt agmcics to dearly delineate the
            responsibility for the systems to be squarel)' on the host. gO\'Crllfnetlt age:ncy and that results are:
            available to OCHCO.

            Recommendation 10 - Concur
            The HR[T systems cited in the report are considered EIS, These systems are: managed by another
            government agency and arc: provided as a paid service lor DI-IS use. The responsibility for
            security and management ofthesc systems is solely that ofttle host government agency. 11K:
            POA&M deficiencies noted in this report are oot DHS specific. and OPM has made significant
            progress in the: c1osw'c ofover 100 POA&M items noted during prior year assc:ssmc:nts of the
            EHRI S)·stems.

            Recommc:ndation II - Concur
            WebTA is cunently being recorded in the OCIO inventOf)' as an EIS. The s)'Ste:m is managed by
            the U.S. Departme:nt of Agriculture: (USDA) as pan of their lI'UItldate to be a provider of this t}'PC
            of SC'TVice: for other go\'e:mment agencies. The responsibility for security and management of this
            system is clearly delineated as a USDA responsibility. However. OHS must decide to accept the
            NFC line ofcodc where NFC would then 0\\1I1he C&A responsibility or OilS must o\\-lIlhe
            system and acccplthe C&A responsibility. HeBS slall'is currently working this issue with
            OCl0.

            Thank )'ou for the opponunity to woO: with }'our staff on this Audit. Should }'ou have: any
            questions. please call me at (202) 357-8151. or your stall' may contaet Vince Micone. Chiefof
            Staf( at (202) 357-&-«18.

            cc:     Chieflnformation Officer




  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                                           Page 29 

Appendix C
Major Contributors to this Report

                        Information Security Audit Division

                        Edward Coleman, Director
                        Chiu-Tong Tsang, Director
                        Mike Horton, Information Technology Officer
                        Aaron Zappone, Team Lead
                        Amanda Strickler, Information Technology Specialist
                        Michael Kim, Information Technology Auditor
                        Nazia Khan, Information Technology Specialist

                        Beverly Dale, Referencer




  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                              Page 30 

Appendix D
Report Distribution

                        Department of Homeland Security

                        Secretary
                        Deputy Secretary
                        Chief of Staff
                        Deputy Chief of Staff
                        General Counsel
                        Executive Secretariat
                        Assistant Secretary for Policy
                        Assistant Secretary for Office of Public Affairs
                        Assistant Secretary for Office of Legislative Affairs
                        Under Secretary for Management
                        Deputy Under Secretary for Management
                        Chief Human Capital Officer
                        Chief Information Officer
                        Chief Information Security Officer
                        Director, Compliance and Technology Information Security Office
                        Deputy Director, Compliance and Technology Information
                        Security Office
                        Information System Security Manger, ITSO, Headquarters
                        Services Division
                        Audit Liaison, OCIO
                        Director, GAO/OIG Liaison Office

                        Office of Management and Budget

                        Chief, Homeland Security Branch
                        DHS OIG Budget Examiner

                        Congress

                        Congressional Oversight and Appropriations Committees, as
                        appropriate




  Management Oversight and Component Participation Are Necessary to Complete DHS’ Human Resource 
 

                                  Systems Consolidation Effort
 


                                              Page 31 
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
